             REPORT ON THE FOLLOW-UP AUDIT OF PHYSICAL

                SECURITY OF THE LOCAL AREA NETWORK




                         Table of Contents

                                                             Page

EXECUTIVE DIGEST ............................................   1

AUDIT OBJECTIVE .............................................   3

AUDIT SCOPE .................................................   3

BACKGROUND ..................................................   3

FINDING No. 1 - Weaknesses Continue To Exist In The
                Physical And Environmental Security of
                Critical Network Hardware

     o   Details of Finding .................................. 5
     o   Recommendations/Management Response ................. 13

FINDING No. 2 - Inadequate Management of Laptop Computer
                Resources

     o   Details of Finding .................................. 15
     o   Recommendations/Management Response ................. 20

APPENDIX - Managing Director's Response to the Draft Audit
           Report
EXECUTIVE DIGEST

In March 1994, the Office of Inspector General (OIG) issued an
audit report entitled "Report on the Audit of Physical Security
of the Local Area Network." In that report, the OIG concluded
that the Federal Communications Commission (FCC) had not
established internal controls which adequately protect components
of the FCC network from physical and environmental threats. Such
physical and environmental threats to the network include
deliberate intrusion, natural and/or man-made hazards, damage or
theft of equipment, and unauthorized access to data.

The objective of this audit was to determine whether the
Commission had implemented a corrective action program in
response to our March 1994 audit report. An additional objective
was to evaluate the controls in place to ensure the protection of
network microcomputer workstations and laptops from physical and
environmental threats.

During the review we found significant improvements in the
Commission's computer security program. For example, in our
March 1994 report we reported that the Commission had not
conducted a risk analysis or prepared a computer security plan
for the network as required by the Computer Security Act of 1987.
 During this review we examined the Commission's risk assessment
and security planning activities and determined that a network
risk assessment was completed and a comprehensive security 2-year
plan has been developed based, in part, on that assessment. In
addition, the Commission issued a final version of Directive
FCCINST 1479.1 entitled "FCC Computer Security Directive." This
Directive provides a comprehensive framework for managing
computer security on the variety of hardware and software
platforms used by the Commission.

Although we recognize significant progress in the Commission's
computer security program, we found that further improvements in
physical and environmental security controls are necessary to
adequately protect the network from physical and environmental
threats. In addition, our review identified weaknesses in the
management of laptop computers.

The FCC has become increasingly dependent upon its automated
systems. Interruption to services provided by the Local Area
Network (LAN), which include access to databases, E-mail, and the
Internet, would be extremely disruptive to the Commission. Loss
of network and portable computing resources would have an
immediate and profound effect on employee productivity and would
impact the Commission's ability to conduct business. This would
include the Chairman, Commissioners, and their respective staffs.
 For example, the E-mail system would be disabled and information
on Commission databases could not be retrieved. Physical and
environmental controls, i.e., locks, fire extinguishers,
uninterruptable power supplies (UPS), etc., help ensure that
these scenarios do not occur. These measures can be readily
adopted at a reasonable cost and, in the case of fire
extinguishers and UPS, are transportable within the current FCC
space or to the Portals as is projected for mid-1997.

The Managing Director has concurred with each of our
recommendations and has provided a timetable for implementing
corrective action. Excerpts from the Managing Director's
response to our draft report are incorporated under the
appropriate audit recommendation. The entire response is
contained in the Appendix to this report.
AUDIT OBJECTIVE

The first objective of this audit was to determine the status and
effectiveness of corrective actions which were instituted as a
result of recommendations contained in a March 1994 OIG audit
report entitled "Report on the Audit of Physical Security of the
Local Area Network." An additional objective was to examine the
physical and environmental security of network microcomputer
workstations and laptop computers.

AUDIT SCOPE

The audit was conducted in accordance with Generally Accepted
Government Auditing Standards, and included such analysis,
interviews and testing as required to support the audit findings.

The scope of this review was limited to the network and
microcomputer workstations operating in FCC Headquarters office
space. The scope of our assessment of physical and environmental
security of laptop computers was not geographically limited
(i.e., laptop computers assigned to field components were
included in the review).

Audit fieldwork was primarily performed within the Office of the
Managing Director (OMD) from October 1995 through February 1996.

BACKGROUND
On December 24, 1985, the Office of Management and Budget (OMB)
issued Circular No. A-130. This Circular provides a general
policy framework for management of Federal information resources.
 The Circular implements provisions of the Paperwork Reduction
Act of 1980 as well as other statutes, Executive Orders, and
policies concerning general information policy, information
technology, privacy, and maintenance of Federal records. In
addition, the Circular places specific responsibility on the head
of each agency to "(e)nsure that the information policies,
principles, standards, guidelines, rules and regulations
prescribed by OMB are implemented appropriately within the
agency."

Appendix III to OMB Circular No. A-130, entitled "Security of
Federal Automated Information Systems", establishes a minimum set
of controls to be included in Federal automated information
systems security programs. The appendix specifically requires
that agencies shall:

a.Assure that there are appropriate technical, personnel,
     administrative, environmental, and telecommunications
     safeguards in automated information systems;



                                3
b.Assure the continuity of operations of automated information
     systems that support critical agency functions;

c.Implement and maintain an automated information systems
     security program, including the preparation of policies,
     standards, and procedures;

d.Assure that an appropriate level of security is maintained at
     all information technology installations operated by or on
     behalf of the Federal Government.

On January 8, 1988, the President signed the Computer Security
Act of 1987 into law. The purpose of the law was to recognize
that "improving the security and privacy of sensitive information
in Federal computer systems is in the public interest." The law
"creates a means for establishing minimum acceptable security
practices for such systems, without limiting the scope of
security measures already planned or in use."

In March 1994, the OIG issued an audit report entitled "Report on
the Audit of Physical Security of the Local Area Network." In
that report, the OIG concluded that the Commission had not
established internal controls which adequately protect components
of the FCC network from physical and environmental threats. In
addition, the OIG concluded that this condition resulted in an
increased risk and magnitude of harm that could result from a
wide variety of physical threats and environmental hazards to the
network including deliberate intrusion, natural and/or man-made
hazards, damaged or stolen equipment, and unauthorized access to
data.




                                4
Finding No. 1 - Weaknesses Continue To Exist In The Physical
                And Environmental Security of Critical Network
                Hardware

In the "Report On The Audit Of Physical Security Of The Local
Area Network," dated March 30, 1994, the OIG reported the results
of our tests of physical and environmental security in computer
hub rooms in the 1919 M Street headquarters facility. For
purposes of this review, we have defined a computer hub room as
an area containing core network hardware (e.g., file servers,
routers, patch panels, etc.). The report concluded that the
Commission had "not established adequate physical security
controls to protect critical LAN hardware from physical threats."
 In addition, we concluded that "(t)he FCC has not protected some
critical LAN components from environmental hazards." We
recommended implementation of a series of controls to improve the
physical and environmental security of network hardware.
Management concurred with our recommendations and established a
time table to effect the action required to correct the
identified deficiencies.

As part of this review, we examined the corrective action taken
by the Commission to improve physical and environmental security
in computer hub rooms containing network equipment. In addition
to assessing managements activity resulting from our March 30,
1994, audit report, the scope of this follow-up review was
expanded to include hub rooms in the following FCC headquarters
office space:

     ·2000   M Street
     ·2025   M Street
     ·2033   M Street
     ·1250   23rd Street
     ·2000   L Street

During the review, we identified physical and environmental
security weaknesses which had been identified and reported in our
previous audit. During audit testing, we identified the
following conditions: (1) computer hub rooms, including the FCC
data center, which were not physically secured during and after
business hours; (2) hub rooms which did not employ cypher locks
on all points of entry nor deploy additional security devices
(e.g., door locks) when those devices were available; (3) hub
rooms in which equipment was not properly protected from
accidental disconnection; (4) lack of smoke detection and fire
suppression in computer hub rooms; (5) hub rooms which showed
signs of water damage; and (6) hub rooms which were excessively
dirty.

Inadequate physical and environmental security controls threaten
the viability of the network by increasing the risk of damage to


                                5
equipment (whether willful or inadvertent), theft of equipment,
and unauthorized access to data.

These conditions resulted from: (1) physical space restrictions
during network installation requiring commingling of network
equipment with common work areas and items; (2) lack of employee
awareness of security requirements; (3) budget restrictions; and
(4) inadequate planning for physical and environmental security
during expansion.

Requirements For The Physical And Environmental Security Of
Critical Network Resources Are Well Established By Government
Regulation And Industry Standards

The requirement for physical and environmental security of
computer equipment is addressed in Federal and Agency regulation.
 Office of Management and Budget (OMB) Circular No. A-130,
entitled "Management of Federal Information Resources",
establishes a minimum set of controls to be included in Federal
automated information systems security programs. The Circular
states that agencies shall "assure that there are appropriate
technical, personnel, administrative, environmental, and
telecommunications safeguards in automated information systems"
and that agencies "assure the continuity of operation of
automated information systems that support critical agency
functions." Furthermore, FCC Directive 1479.1, entitled "FCC
Computer Security Program", addresses guidelines for the
protection of FCC computer systems. The Directive establishes
that "offices and work areas where FCC computer systems are
located must be physically secured when unattended." The
Directive recognizes that "(a)dequate controls should be employed
consistent with the value, exposure and sensitivity of the
information and equipment that is to be protected."

In December 1990, the Institute for Internal Auditors published
the Systems Auditability and Control Report, hereafter referred
to as the "SAC Report." The SAC Report is the result of a major
research project conducted by top professionals in the
information systems audit profession and provides comprehensive
guidance on information technology and information systems
auditing. Requirements for strong physical and environmental
security are recognized in several modules of the SAC Report. In
module four, entitled "Managing Computer Resources", the SAC
Report recognizes that "(a) well-designed security program
addresses physical security" and that physical security "should
be designed to: Prevent unnecessary and unauthorized access to
the computer room and equipment; and prevent unauthorized access
to computer operations areas." Module nine of the SAC Report,
entitled "Security", states that "(w)ith the expanded reliance on
Information System (IS) data and resources, security has become
fundamental to the ongoing viability of most organizations" and


                                6
that physical security "is the most basic and commonly addressed
form of IS control."

With respect to environmental security, module nine of the report
discusses the risks presented by environmental hazards including
fire and water damage, as well as damage from "pollutants in the
air or from chemicals used in or near the environment where the
information systems are located." Chapter three of this module
directly addresses the need for smoke detection and fire
extinguishing equipment reporting that "(f)ire and flood, along
with the resultant damage caused by fire extinguishing procedures
(smoke and water damage), are two of the most common causes of
damage to IS equipment and records.

The Commission Has Not Provided Adequate Physical And
Environmental Security For Computer Hub Rooms Containing Critical
Network Components

The Commission has distributed critical network hardware to a
series of rooms (hereafter referred to as "hub rooms") throughout
the buildings being used by headquarters personnel. Hub rooms
vary in complexity from those which contain only "patch panels"
(connecting vertical and horizontal cabling) to those containing
network file servers and database servers. The core components
of the FCC network are located in the FCC Data Center (Room M10
of the 1919 M Street facility). Equipment in the Data Center
provides network connectivity to other headquarters buildings,
field offices, the Laurel laboratory, the Gettysburg facility,
and the Auction site located on Massachusetts Avenue in
Washington, DC. In addition, the Commission's modem pool
(providing dial-in/dial-out services) and many of the network
database servers are located in the Data Center.

As part of our testing of physical and environmental security
controls, we:

     -reviewed policies and procedures established to control
          access to hub rooms;

     -identified the locations of these hub rooms and conducted
          tests, both during and after business hours, to
          determine the status of physical and environmental
          security in these areas;

     -examined the security measures (e.g., cypher locks, key
          locks, Uninterruptable Power Supply (UPS), fire
          control, etc.) taken to protect computer hub rooms;

     -interviewed representatives from the Office of the
          Associate Managing Director - Operations to develop an
          understanding of controls over building access and


                                7
          egress;

     -surveyed personnel with hub room access to determine
          familiarity with security requirements; and

     -examined that results of self testing conducted by the FCC
          Computer Security Officer.

On November 21 and 22, 1995, we conducted an inspection of
computer hub rooms in six FCC headquarters buildings. The
inspection was conducted during business hours. During the
inspection, accompanied by the FCC Computer Security Officer, we
tested the physical and environmental security controls in place
in twenty-six computer hub rooms. During that testing we
identified the following weaknesses:

     ·    Eight of the hub rooms inspected were not physically
secure during our testing. The severity of this finding is
compounded by the fact that, during the inspection, we were
challenged for identification on only one occasion by an FCC
employee. In fact, in several cases we were directed to
unsecured hub rooms by helpful FCC personnel. It should be noted
that we did not display FCC identification nor were we familiar,
as a rule, to persons in the areas we visited. In fact, on the
second day of our inspection we were dressed in casual attire.

     ·    Thirteen of the hub rooms inspected had one or more
entry points that did not employ a cypher lock security. In some
cases, these entry points were equipped with a key lock security
feature that was being used at the time the testing was
conducted. However, in other cases, these entry points were
unsecured. In one hub room the cypher lock had been disabled to
allow access to the room. In another case a sign on the door
warns users "Do Not Lock Door."

     ·    Seventeen of the hub rooms inspected were being
utilized as "shared" space and were not dedicated to supporting
the network backbone. Many of the hub rooms contained unused
furniture, file cabinets, printers, fax machines, book cases, and
other non-network related materials. Use of hub rooms for
purposes other than support of the network significantly
increases the risk of willful or inadvertent damage to equipment,
theft of equipment, and unauthorized access to data.

     ·    In three of the hub rooms inspected, we observed
cabling which was not properly protected from accidental
disconnection. Two of these hub rooms were being used as
"shared" space.

     ·    None of the hub rooms inspected were equipped with
smoke detection equipment.


                                8
     ·    Six of the hub rooms inspected contained evidence of
water damage. In one location there was evidence of significant
water damage. Some of the damage was on the ceiling above
network equipment.

     ·    Fourteen of the hub rooms did not have a fire
extinguisher within fifty feet. In fact, the only hub rooms that
had this equipment nearby were those located near the elevators
in the 1919 M Street building.

     ·    A file server in one of the hub rooms was not equipped
with an operational Uninterruptable Power Supply (UPS). UPS
equipment provides backup in the event of a power failure. In
addition, we observed cleaning solvents stored in this hub room.
 Fumes from these solvents may cause damage to sensitive network
components. In addition to solvents, we observed that many of
the hub rooms inspected were not properly maintained. Many of
the rooms contained old newspapers, magazines, food containers,
etc.

For security reasons, we have provided the Managing Director with
a comprehensive listing of hub rooms tested and weaknesses
identified by location under separate cover.

The FCC Data Center Was Not Physically Secured After Business
Hours

The core of the FCC's information network is located on the
mezzanine level of the 1919 M Street facility. Specifically, the
data center contains numerous network file servers, data base
servers, telecommunications equipment, network hub equipment, and
backup equipment. Traditionally, due to the sensitivity of the
data maintained at such a site, high value of the equipment, and
environmental sensitivity, control over access is carefully
administered. In fact, access via card key, cypher locks, and
use of biometric devices are routine in many data centers.

On December 12, 1995, representatives from the OIG went to the
data center to evaluate the physical security of the
workstations. Expecting stringent access security, the auditors
were surprised to discover no hindrance to entrance. After
gaining entrance, the auditors toured the data center looking for
on duty personnel. No personnel were found in the area. During
a second visit later that evening, auditors observed and
photographed numerous network file servers (including a file
server "mirroring" the auction file server), telecommunications
equipment, UNIX data base servers (figure 1 on page 11), boxed
UNIX equipment, numerous personal computers, and other computer
equipment.



                                9
During our inspection of the data center, we noted access from
the data center to the loading dock in the rear of the 1919 M
Street building existed via an elevator. At the time of our
visit, we observed that the elevator latch was in place and that
the elevator was secure (figure 2 on page 11). However, in a
previous building security tour, conducted with representatives
from the AMD-O security office, AMD-IM, and the contract security
force, we observed that: (1) this elevator was not secured while
not in use, and (2) the rear loading dock was unsecured. We were
informed by a representative from the contract security force
that these conditions are occasionally observed during routine
security checks. In our opinion, the severity of the data center
physical security weakness we identified is compounded by this
weakness in building access control.

We contacted representatives from AMD-IM to determine the reason
for this condition and to determine what steps would be taken to
prevent a recurrence. We were informed that "a simple oversight
in checking the front door was the cause of the center being left
open." The AMD-IM response went on to note that "Data Center
staff have been instructed to verify that all access points are
secured before closing the Data Center."

On February 21, 1995, representatives from the OIG met with the
FCC Computer Security Officer and were provided with an update on
security enhancements in the data center. In addition, we
conducted an inspection of the data center and were briefed on
planned controls.




                               10
figure 1: OIG Auditor standing in front of UNIX database
         servers located in the FCC Data Center




                          11
figure 2: Elevator providing access from the FCC Data
            Center to the rear loading dock




                         12
Physical And Environmental Security Weaknesses Threaten Network
Viability

Risks associated with inadequate physical and environmental
security controls include: unauthorized access to computer
equipment; possible willful or inadvertent loss or destruction of
equipment; and theft, unauthorized copying, modification, or
destruction of data. The risk is compounded by the accessibility
to FCC work areas by non-FCC personnel such as contractors,
messengers, and cleaning personnel. In addition, a tested
Continuity of Operations Plan (COOP), normally a significant
mitigating control feature, has not been developed for the FCC
network. A recently published 2-year computer security plan
indicates that COOP development efforts will begin in the 3rd
quarter of FY96.

Several Conditions Have Prevented Implementation Of A Strong
Physical And Environmental Security Control Program

The weaknesses identified have resulted from several conditions
including: (1) space restrictions which have impacted unfavorably
upon secure network installation; (2) lack of employee awareness
of security requirements; (3) budget restrictions; and (4)
inadequate planning for physical and environmental security
during expansion.

In our initial review of network physical security (as reported
in our audit report dated March 30, 1994), we questioned AMD-IM
management about the use of "shared" space for network hub rooms.
 We were informed that many of the rooms being used are
"controlled by the various Bureaus" and that "(t)hese rooms were
the only rooms made available by the B/O, several years ago when
OMD asked for space to put in their Departmental Computers." We
were further informed that "(t)here was and still is no space on
these floors to make as secure an area as desired." We stated in
that report that "the importance of reducing the risk ...
outweighs any inconveniences that might be imposed." We continue
to hold this opinion.

During our inspection of hub rooms throughout FCC headquarters
work space we were repeatedly directed to hub rooms by FCC
personnel without being challenged for identification. In our
opinion, this indicates a lack of awareness on the part of FCC
personnel of their security responsibilities. FCC Directive
1479.1, entitled "FCC Computer Security Program," establishes
these responsibilities and states that "FCC users have a
responsibility to create and maintain a secure work environment,
and to protect the computer assets used to fulfill business
activities."




                               13
Improvements Have Resulted Since OIG Report Issuance

The Commission's computer security program has seen significant
improvement since our March 1994 audit. For example, the
Commission has issued a network risk assessment and a
comprehensive security 2-year plan. In addition, the Commission
issued a final version of Directive FCCINST 1479.1 entitled "FCC
Computer Security Directive." This Directive provides a
comprehensive framework for managing computer security on the
variety of hardware and software platforms used by the
Commission. Unfortunately, several of the planned security
activities that impact physical and environmental security are on
hold because of funding problems. For example, Continuity of
Operations Planning activities will be delayed until budget
resolution. In addition, we were informed that "the need for
fire extinguishers in some Hub Rooms requires funding which is
currently unavailable."

The scope of our March, 1994, audit report was limited to
computer hub rooms in the 1919 M Street building. In that
report, we made specific recommendations for the implementation
of physical and environmental security controls for those hub
rooms where weaknesses were identified. During testing conducted
as part of this review, we noted that the controls recommended
for 1919 M Street hub rooms had been implemented. However,
physical and environmental security does not appear to have been
adequately addressed during the establishment of hub rooms in
headquarters expansion facilities.

Planned FCC Move To Portals
The OIG recognizes that many of the concerns addressed in this
report will be negated when the Commission moves to new office
space in the "Portals" facility. However, in our opinion, the
risks associated with the conditions we have identified in this
review require that action be taken to protect network equipment
prior to that move.

Recommendation for Corrective Action 1 of 4
The Managing Director take immediate steps to ensure the physical
security of areas in which critical network resources are
located. These steps should include (1) resolution of the shared
space issue by either physical isolation of equipment within the
shared space or removal of non-network materials from the area;
and (2) installation of cypher locks in all hub rooms containing
network hardware. In addition, we recommend that the Managing
Director take steps to periodically remind FCC personnel of their
security responsibilities.



                               14
Management Response

The Managing Director has concurred with the recommendation and
has recognized actions taken by AMD-IM to improve physical
security in computer hub rooms. In addition, the Managing
Director stated that "AMD-IM and the Associate Managing Director
- Operations (AMD-O) staff are installing cipher locks in key
network spaces not currently equipped with such devices" and that
"(b)oth groups are also working to improve existing physical
security in M10, the Data Center."

Recommendation for Corrective Action 2 of 4

The Managing Director take immediate steps to ensure the
environmental security of areas in which critical network
resources are located. These steps should include (1)
installation of smoke detection equipment in computer hub rooms;
(2) installation of fire extinguishers in computer hub rooms; (3)
evaluation of alternatives for periodically cleaning hub rooms;
(4) evaluation of alternatives to minimize water damage exposure
(including removal of equipment if necessary); (5) review of hub
room cabling to minimize accidental disconnections; (6) removal
of cleaning solvents from hub rooms; and (7) periodic review of
the status of UPS equipment.

Management Response
The Managing Director has concurred with the recommendation and
has recognized actions taken by AMD-IM to improve the
environmental security of critical network components. In
addition, the Managing Director has stated that "(a)ll cleaning
solvents have been removed from hub rooms" and that the "periodic
review of UPS equipment and its stability has been scheduled for
completion by May 1996."




                               15
Finding No. 2 - Inadequate Management Of Laptop Computer
                Resources

Prior to 1994, a limited number of laptops had been purchased by
the Commission for special purposes. In the past two years, as
part of the FCC's automation initiative, the Commission has
purchased over two-hundred (200) additional laptop computers. As
a result, the Commission currently maintains an inventory of
laptops totalling over three-hundred units. This represents
approximately one laptop for every six employees. With the
acquisition cost of laptops ranging from $2,455 to $6,149 per
unit, it is clear that this equipment represents a significant
capital investment. Commensurate with this investment, the
Commission has not established an adequate program for managing
laptop computer resources. During audit testing, we identified
weaknesses which included: (1) inaccurate inventory records and
(2) lack of periodic comprehensive physical inventories.

An inadequate laptop management process increases the risk of
loss of scarce laptop computer resources and data. These
conditions resulted from inadequate planning during program
implementation.

Requirements For Managing Computing Resources Are Well
Established By Industry Standards And Government Regulation

The requirement for management of portable computing resources is
addressed in Federal and Agency regulation. Office of Management
and Budget (OMB) Circular No. A-130, entitled "Management of
Federal Information Resources", establishes a minimum set of
controls to be included in Federal automated information systems
security programs. The Circular recognizes that "... the value
of government information to the entire Nation, the management of
Federal information resources is an issue of continuing
importance to the public and to the government itself." The
Circular goes on to state that agencies shall "(d)evelop internal
agency information policies and procedures and oversee, evaluate,
and otherwise periodically review agency information management
activities" and that agencies "shall assure an adequate level of
security for all agency automated information systems." The
circular also directs that "agency and contractor personnel
involved in the management, operations, programming, maintenance,
or use of information technology are aware of their security
responsibilities and know how to fulfill them."

FCC Directive 1479.1, entitled "FCC Computer Security Program",
addresses guidelines for the protection of portable computing
resources. The Directive recognizes that "with portable
computing resources there are significant inherent exposures
related to theft and the safeguarding if information" and that
"FCC users should be particularly security conscious when


                               16
travelling with portable computer resources." The Directive
states that "offices and work areas where FCC computer systems
are located must be physically secured when unattended" and that
"(a)dequate controls should be employed consistent with the
value, exposure and sensitivity of the information and equipment
that is to be protected."

FCC Directive 1054.1, entitled "Property Management", states that
it is "FCC policy to assure the proper identification, custody,
use, care, maintenance and safeguarding of all Federal property."
 In addition, the Directive establishes objectives which include
"(t)o list and account for all inventoried Commission property at
a central point within the agency" and "provide for the periodic
inventory of all FCC inventoried property and reconciliation with
the appropriate property records." The Directive assigns
Automatic Data Processing (ADP) equipment management
responsibilities to the Associate Managing Director - Information
Management.

Risks associated with managing portable computing resources is
addressed in several modules of the SAC Report. Module nine of
the SAC Report, entitled "Security", states that
"(m)icrocomputers present one of the fastest growing areas of
potential data security vulnerability" and that "the most obvious
form of microcomputer security is protecting the machines
themselves against theft." The Report goes on to state that
"(m)icrocomputers and components are now exceeding typewriters
and telephones as the office equipment most often stolen. Of
course, the difference is that, unlike a typewriter,
microcomputers with hard disks may contain critical data that are
difficult or impossible to replace."

The Commission Has Not Established An Effective Laptop Computer
Management Process

In mid-1994, as part of on-going efforts to automate operations,
the Commission began to procure laptop computers. Prior to that
time, the Commission had purchased a small number of laptops for
special purposes. Based upon our review of Commission inventory
records, as of October 1995, the Commission had three-hundred
seven (307) laptop computers ranging in cost from $2,455 to
$6,149 per unit.

As part of our review of the laptop management process, we
interviewed representatives from AMD-IM and Bureaus/Offices to
obtain an understanding of the current laptop management process;
obtained and reviewed laptop checkout documentation and
associated database records; and used statistical sampling
techniques to select laptop computer for detailed review.

Using a statistical model based upon a ninety-five percent (95%)


                               17
implied confidence factor and an acceptable error rate of five
percent (5%), we selected a sample of fifty-four (54) laptop
computers from a universe of three-hundred seven (307). For each
laptop selected, we:

     -used available inventory records to ascertain the
          organization to which the laptop was currently
          assigned;

     -contacted the organization to determine the current
          location of the equipment (where available, we
          collected and reviewed documentation reporting
          equipment disposition);

     -contacted the individual to which the laptop was assigned
          to determine if the individual had the equipment, and
          determine physical and environmental security controls
          used to protect the equipment; and

     -attempted to physically verify the equipment (using
          recorded serial #, FCC #, and barcode information).

Our detailed review of selected laptop computers yielded the
following results:

     ·Sixty-seven percent (67%) of the selected laptops were
          physically verified (36 ÷ 54 = 67%). Verification was
          done through either physical examination of the
          equipment or, when this method was impractical,
          verification of Serial Number, FCC Number, and Barcode
          by employee. Four of the laptops in this category
          could not be located initially despite an extensive
          review of available inventory records. Information
          regarding these laptops was provided to AMD-IM and,
          through additional review, AMD-IM was able to locate
          the equipment.

     ·Eleven percent (11%) of the selected laptops could not be
          located (6 ÷ 54 = 11%). Two of these laptops were
          reported in Help Desk inventory records as being
          checked out indefinitely. However, when we contacted
          Commission personnel reported as having checked out the
          equipment, we were informed that they did not have
          these laptops. Another laptop was reported in
          inventory records as having been distributed to the
          Compliance and Information Bureau (CIB). We contacted
          CIB and were informed that they were unable to locate
          this equipment. The FCC Computer Security Officer
          stated in a memorandum to the OIG that, in his opinion,
          "given sufficient time, the remaining laptop computers



                               18
          can be located and accounted for."

     ·One of the selected laptops was determined to have been
          stolen in late November 1995. We were informed by the
          FCC Computer Security Officer that a copy of the
          Federal Protective Service report had been prepared for
          this equipment.

     ·Despite extensive efforts, we were unable to complete a
          physical verification of twenty percent (20%) of the
          laptops selected for review (11 ÷ 54 = 20%). In some
          cases, employees using this equipment were on travel,
          on leave, or out on disability during our review.
          However, three employees did not produce equipment for
          physical verification despite repeated requests to
          cooperate with this review effort and repeated
          assurances that cooperation was forthcoming.

In our opinion, the results of this detailed review of selected
laptops indicate significant deficiencies in the laptop
management process.

Laptop Inventory Records Are Not Accurate

The official inventory of FCC laptop computers is maintained by
the Equipment Support Branch (ESB) within AMD-IM. We used their
inventory report, dated October 6, 1995, as the basis for our
selection of laptop computers for detailed review. Following our
sample selection, we contacted Data Automation Liaison Officers
(DALO) from each Bureau and Office and FCC Help Desk personnel to
obtain any internal laptop inventory records that might reside in
their respective Bureaus and Offices.

Starting with the official ESB inventory report we attempted to
locate each individual laptop in our sample. Based upon our
unsatisfactory results, we concluded that the official inventory
does not accurately reflect the distribution of laptop resources
to Bureaus/Offices or the Help Desk. Likewise, we determined
that, certain Help Desk and Bureau/Office inventory records do
not accurately reflect the physical location of the equipment.

For example, one of the laptops selected, a Toshiba 3400 CT -
Serial Number 03421326, was reported in the official inventory as
being assigned to the Customer Solutions Division of AMD-IM.
Typically, this designation means that the equipment was assigned
to the Computer Help Desk. However, in this case, no record of
this equipment existed in Help Desk records. Despite extensive
efforts on the part of this office and AMD-IM, we were ultimately
unable to locate this equipment.




                               19
In another example, a selected laptop, Toshiba 1960 CS - Serial
Number 07419506, was reported in the official inventory as being
assigned to the Customer Solutions Division of AMD-IM. A review
of Help Desk records indicated that the laptop had been assigned
to the Help Desk and had been signed out indefinitely to an
individual in the Common Carrier Bureau. We contacted the
individual and were informed that he did not have this equipment.
We passed this information along to the FCC Computer Security
Officer who was subsequently able to locate the equipment.

It should be noted that several Bureaus and Offices did maintain
accurate laptops inventory records. For example, we reviewed
records maintained by the Mass Media Bureau (MMB) and found a
comprehensive laptop management process.

Laptop Computer Resources Are Not Periodically Inventoried

FCC Directive 1054.1, entitled "Property Management", establishes
requirements for a "periodic inventory of all FCC inventoried
property and reconciliation with the appropriate property
records." As part of our review, we met with a representative
from the Equipment Support Branch within AMD-IM to discuss laptop
inventory procedures. We were informed that the Equipment
Support Branch has delegated responsibility for conducting laptop
inventories to the Help Desk. We were further informed that this
was the result, in part, of problems associated with conducting
inventories of laptop equipment. For example, we were informed
that some employees refuse to produce equipment for inventory
purposes when requested. In addition, laptops are frequently
moved without reporting the information to the Equipment Support
Branch.

Although we were informed that periodic laptop inventory
responsibilities were delegated to Computer Help Desk staff, a
representative from the Computer Help Desk stated that laptops
were not periodically inventoried. Instead, Help Desk inventory
record are checked for accuracy when, and if, equipment is
returned to the Help Desk for redistribution, repair, or
enhancement. In our opinion, this process does not represent an
adequate physical inventory process.

Weaknesses In Laptop Management Increase The Risk Of Asset Loss
An inadequate laptop management process increases the risk of
loss of laptop computer equipment and data. As part of our
review, we requested information about recent computer thefts at
the Commission. We received a memorandum from the FCC Computer
Security Officer documenting theft for the period from June 1995
to February 1996. During that period, seven (7) laptop




                               20
computers, valued at $21,5801, were reported stolen from
headquarters facilities. The effect of the loss of this
equipment is magnified as a result of the difficult budget
conditions currently faced by the Commission. As part of this
review, we have worked with the Computer Security Officer to
identify potential physical control alternatives for laptops
including a chip based monitoring system.

Several Conditions Have Prevented Implementation Of A Strong
Laptop Management Process

In our opinion, the conditions identified in this review resulted
from inadequate planning during program implementation. In mid-
1994, the Commission began to purchase a large number of laptop
computers. Some laptops were distributed directly to Bureaus and
Offices while the remainder were assigned to the FCC Computer
Help Desk. The method by which these resources were managed was
left to the individual organizations. This lack of formal
program establishment led to control weaknesses.

For those laptops assigned to the Computer Help Desk, management
of the checkout process was originally accomplished using the
Help Desk call-in log. As part of our review, we obtained and
reviewed a copy of the log for 1995. The log records a variety
of information about each checkout including Client Name,
Organization, and Resolution. However, the log did not
consistently record information about the specific laptop checked
out. As part of our detailed review of selected laptops, we
reviewed records from the recently developed Help Desk laptop
management system. The current system is comprised of two
databases, one for short term loans and one for indefinite loans.
 In our opinion, this process represents an improvement over the
original log process.

In addition to reviewing Help Desk records, we reviewed inventory
records maintained in the Bureaus and Offices. Generally, we
found that these records were well maintained. For example, we
reviewed the program established by MMB and found a comprehensive
program including formal policies and procedures and a database
providing a detailed history of MMB's laptop inventory.

Recommendation for Corrective Action 3 of 4
The Managing Director: (1) conduct a complete inventory of
Commission Laptop Computers and adjust inventory records to
reflect the results of this action; and (2) decentralize the
   1
       In addition, the report identifies the loss of additional
automation equipment (including cellular phones, fax machines,
printers, components, etc.) with a combined value of over $57,400.



                                21
responsibility for managing laptops checked out indefinitely from
the Help Desk to those Bureaus and Offices with the resources
necessary to independently manage the process. The Help Desk
should continue to manage laptops for those organizations who
require that service.

Management Response

The Managing Director has concurred with the recommendation and
stated that "(a) baseline inventory of all laptop computers has
been scheduled for this fiscal year" and that "(a)s part of the
corrective action, improvements for the management of laptop
computers is planned."

Recommendation for Corrective Action 4 of 4

The Managing Director develop guidance for use by Bureaus and
Offices managing laptop resources. This guidance should include
notification to users: (1) of their responsibilities for
presenting equipment for physical inspection as part of the
physical inventory process; (2) of their responsibilities for
ensuring the physical security of laptops that have been assigned
to them and their accountability for that equipment if it is lost
or damaged through their negligence; (3) that equipment is to be
used only for official FCC business; and (4) that software is not
to be loaded onto laptops without being scanned for viruses.

Management Response
The Managing Director has concurred with the recommendation and
stated that "(g)uidance will be prepared and disseminated to
Bureau and Office representatives responsible for the management
of laptop computers." In referring to the guidance, the Managing
Director goes on to state that "(r)esponsiblities will be
outlined and users will be notified of their responsibilities
when they are assigned laptop computers for official use."




                               22
